        U.S. Department of Energy
        Office of Inspector General
        Office of Audits and Inspections




Audit Report
The Department of Energy's
K Basins Sludge Treatment Project
at the Hanford Site




DOE/IG-0848                      February 2011
                                  Department of Energy
                                     Washington, DC 20585
                                         February 17, 2011



MEMORANDUM FOR THE SECRETARY

FROM:                     Gregory H. Friedman
                          Inspector General
SUBJECT:                 INFORMATION: Audit Report on “The Department of Energy’s
                         K Basins Sludge Treatment Project at the Hanford Site”


BACKGROUND

In 1999, the Department of Energy's Richland Operations Office (Richland), the U.S.
Environmental Protection Agency, and Washington State Department of Ecology signed an
agreement for the remediation of two spent nuclear fuel storage basins located in the 100 K-Area
of the Hanford Site. This agreement required the Department to retrieve and package for
disposal over 2,100 metric tons of spent nuclear fuel and to remove the estimated 28.5 cubic
meters of radioactive sludge and place it in interim storage pending future treatment. After the
fuel was removed in 2004, the agreement was amended to treat the sludge prior to interim
storage and ship it to a national repository for disposal. The sludge is classified as remote-
handled transuranic waste and will need to be packaged in a configuration that will meet the
acceptance criteria for the Department's Waste Isolation Pilot Plant (WIPP).

The Department's former prime contractor for the K Basins Sludge Treatment Project, Fluor
Hanford, Inc. (Fluor), projected that the total lifecycle cost to treat and package the sludge in the
basins would be approximately $104 million. In November 2004, Fluor subcontracted with
British Nuclear Group America (BNGA), to design and fabricate a modular system known as the
Contractor's Stabilization and Packaging System (CSAPS). This system was to retrieve, oxidize,
and assay the sludge and then grout it in 55-gallon drums.

In September 2005, the Office of Inspector General issued a report on Sludge Removal
Operations at the Hanford Site's K Basins (DOE/IG-0698), which determined that sludge
removal operations had slipped in schedule and experienced significant cost overruns. This audit
is a follow-up to our prior review; we sought, as well, to evaluate the Department's management
of the sludge treatment phase of the Spent Nuclear Fuel project.

RESULTS OF AUDIT

Our review disclosed that the sludge treatment phase of the Spent Nuclear Fuel project had not
been effectively managed. Specifically, Fluor and its subcontractor failed to apply key project
management principles as the project progressed. The Department's administration of the
                                                2

Fluor contract was also ineffective in ensuring that the project was adequately managed.
Ultimately, due in large part to these issues, the CSAPS project was abandoned after 3 years of
effort and the expenditure of about $43 million for the CSAPS module. We found that:

    • Richland had not required an alternative analysis of potential solutions to determine
      which would best meet mission goals and mitigate related risk, including cost, schedule,
      environmental, safety, or health concerns. Notably, Richland and contractor officials
      selected a technology for the project – a key component of the CSAPS which was the
      Mobile Solidification System (MOSS), a system previously used in Europe to process
      low-activity waste – without performing a feasibility study or conducting timely bench or
      demonstration scale tests to determine whether the system could safely contain radiation;

    • Richland permitted contractors to proceed with design, long-lead procurements, and
      construction of MOSS before approving the preliminary safety and hazard analyses and
      despite specific concerns raised by the Defense Nuclear Facilities Safety Board. Even
      after internal management concerns surfaced related to the failure to complete the safety
      analyses, Richland ultimately permitted the subcontractor to continue long-lead
      acquisitions; and,

    • After completion and during acceptance testing of the MOSS module, Richland
      determined that the system had, in fact, been designed without important safety features
      necessary to protect workers from radiation contamination. Because of the significance
      of the safety issues and the high cost associated with resolving the design deficiencies,
      Richland directed Fluor to abandon the CSAPS.

We found that Fluor paid a $1 million fee to BNGA that was not tied to any performance
objectives but appeared to be for contract closeout. Fluor took this action without authorization.
Richland management asserted that it had been unaware that this fee had been paid, until we
brought the matter to its attention. Federal officials told us, as well, that the Richland
Contracting Officer's approval had not been obtained, as required by the Federal Acquisition
Regulations. After we informed Department officials of the payment, they told us that they had
preliminarily determined that the payment amounted to a "constructive termination fee" and were
evaluating it to determine allowability. Since the costs were not approved, as required, we
question the allowability of the entire $1 million payment.

The Department did not properly mitigate project risk in the selection of a treatment technology.
Ultimately, when the CSAPS was abandoned, Richland had already permitted the procurement
and fabrication of equipment that could not, as a direct result, be used for its intended purpose.
As a consequence, the Department spent $43 million for the engineering and procurement of the
CSAPS modules for which it received no useful mission performance; funds that could have
been put to better use. While we could not establish a direct cause and effect relationship with
the CSAPS failures, we also noted that the estimated costs are expected to significantly increase
due to the need to remove the K Basins sludge to comply with regulatory milestones. Fluor
estimated that it would cost approximately $104 million to retrieve, process, package and ship all
of the sludge to WIPP. The Department's new contractor, CH2M Hill Plateau Remediation
                                                 3

Company, estimates that it will cost nearly $175 million to move the sludge from the K Basins to
another facility. This does not include the cost to store the sludge at the interim facility, nor to
treat and package the sludge for disposal.

It is important to note that we have not examined in detail this latest K Basins cost estimate. We
also recognize that this project addresses a complicated, one-of-a-kind waste form with uniquely
challenging nuclear chemistry, and that managing a project of this magnitude and complexity, as
is the case with many environmental management efforts at Department facilities, is no easy
matter. Yet, in our judgment, had existing project management principles been employed by the
contractors involved and if the Department's contract administration had been more robust, the
problems noted may have been avoided. Nonetheless, given the Department's extensive
environmental remediation portfolio, the project and its outcome provide valuable lessons for the
future. In that context, we made several recommendations designed to help prevent similar
contract management issues in future projects.

MANAGEMENT REACTION

The Office of Environmental Management (EM) generally concurred with the report's
recommendations. Management expressed concern that the report does not clearly define the
timeframe of the audit as the period of 2004 through 2007, and does not discuss improvements in
project performance since 2007. Management's comments, included as Appendix 3, outlined a
number of these improvement initiatives, some of which were taken in response to our 2005
report on the K Basins Project. EM asserted that corrective actions have been initiated to address
each major area that was addressed in the recommendations. Specifically, they told us that
actions are underway to: improve project management practices; improve compliance with
Quality Assurance requirements; and, strengthen the role of the Federal Project Director, as well
as other improvements. EM considers these management reforms complete.

Management's reactions to our recommendations are responsive to the finding. In response to
management's comments, we modified Appendix 1 to clarify the timeframe of the activities
under audit. Also, we acknowledge the many process improvement initiatives EM has underway
that are designed to improve project management. These reforms, once fully implemented,
should increase the likelihood of successful project execution. Since the time of our audit, the
Department changed its strategy for sludge remediation; however, the revised project was in the
preliminary design phase and thus was not mature enough for us to evaluate.

Attachment

cc:    Deputy Secretary
       Acting Under Secretary of Energy
       Chief of Staff
       Assistant Secretary for Environmental Management
REPORT ON THE DEPARTMENT OF ENERGY'S K BASINS SLUDGE
TREATMENT PROJECT AT THE HANFORD SITE


TABLE OF
CONTENTS


  K Basins Sludge Treatment

  Details of Finding                                   1

  Recommendations                                      8

  Comments                                             9


  Appendices

   1. Objective, Scope and Methodology                 10

   2. Prior Audit Report                               12

   3. Management Comments                              13
K BASINS SLUDGE TREATMENT

K Basins Sludge     The Department of Energy (Department) did not effectively
Treatment Project   manage the K Basins Sludge Treatment Project. The Department's
                    contract was designed to place project and mission performance
                    expectations on the contractor to treat and package the sludge in a
                    configuration that would meet the acceptance criteria for the
                    Department's Waste Isolation Pilot Plant (WIPP). However, the
                    Department allowed its contractor to design and fabricate the
                    Contractor Stabilization and Packaging System (CSAPS) without
                    first verifying the adequacy of the equipment's performance for the
                    intended application. Ultimately, the Department was forced to
                    abandon the CSAPS after spending approximately $43 million and
                    three years of development efforts.

                                              Project History

                    In November 2004, the Department's prime contractor for the
                    K Basins Sludge Treatment Project, Fluor Hanford, Inc. (Fluor),
                    issued a cost reimbursable contract to British Nuclear Group
                    America (BNGA). This subcontract required BNGA to provide a
                    system that could deliver 55 gallon drums of grouted, remote-
                    handled transuranic waste that met the Department's WIPP
                    acceptance criteria by January 2007. Under the terms of its
                    contract, BNGA was to design and fabricate a sludge treatment and
                    packaging system utilizing existing commercial technology to
                    retrieve, oxidize, and assay the K Basins sludge. Fluor asserted to
                    the Richland Operations Office (Richland) that its subcontract with
                    BNGA "…imposed the full liability on BNGA to construct and
                    operate a technically viable sludge treatment system." Specifically,
                    BNGA's profit (fee) was directly associated with milestones related
                    to the delivery of treated and packaged sludge to the Department.

                    Instead of using one of the five mature technologies outlined in a
                    Pacific Northwest National Laboratory (PNNL) Study that
                    evaluated treatment alternatives for the sludge, BNGA instead
                    chose to construct a module system that would heat the sludge
                    under high temperature and pressure, thus oxidizing the uranium – a
                    process that would permit shipment and disposal. The oxidized
                    sludge would then be assayed and measured prior to packaging
                    utilizing the Mobile Solidification System (MOSS) module. The
                    MOSS was a modified low-activity radioactive waste grouting and
                    packaging process patterned after a system that had been previously
                    utilized in Sweden to remediate low-activity waste. BNGA
                    intended to apply MOSS to a much more radioactive remote-
                    handled transuranic waste environment at Hanford than it had been
                    used for before. Both Richland and Fluor management concluded,
                    based on the evaluation of BNGA's proposal, that the selected



Page 1                                                             Details of Finding
         treatment process could be successfully applied to the
         K Basins sludge. Subsequently, Richland approved Fluor's
         contract with BNGA and a request to begin certain procurements.

         To meet the project schedule, Fluor requested and Richland
         granted "long-lead" procurement authority when the subcontract
         was awarded to BNGA. That is, since the treatment system was
         composed of complex treatment equipment that required a long
         time to procure and manufacture, Fluor believed the project had to
         begin the acquisition process before the design process had been
         completed. Accordingly, in November 2004, Fluor requested
         permission from the Department to procure these "long-lead"
         items. Thirteen days later, in a letter to Fluor, Richland
         management approved this request without first determining the
         impact of this action. Specifically, Richland approved the early
         procurement of equipment before the approval of the Preliminary
         Documented Safety Analysis, a process designed to ensure the
         safety of the Department's nuclear facilities. According to the
         approval letter, the Department stated that long-lead procurements
         were approved provided Fluor accepts "project risk." This
         approval of long-lead items essentially permitted BNGA to procure
         the entire treatment system, not just a few items. Richland
         officials later told us that the meaning they attached to "project
         risk" was that Fluor's fee would be at risk should the process prove
         to be ineffective.

         It is important to note that the Nuclear Safety Management Safety
         Basis Requirements (10 CFR 830 Subpart B) allows the
         Department to authorize the contractor to perform limited
         procurements without the approval of a safety analysis, if the
         Department determines that the activities are not detrimental to
         public health and safety, and are in the best interest of the
         Department. However, Richland's 2004 authorization to Fluor did
         not limit the procurement authority, but instead allowed them to
         move forward with all procurements. Furthermore, Richland had
         not documented any determination it had made that concluded that
         this authorization would not be detrimental to public health and
         safety.

         Within the first year after BNGA was awarded the contract, the
         Defense Nuclear Facilities Safety Board (DNFSB) identified issues
         with the flow down of requirements and defined work scope in the
         BNGA contract. Specifically, Fluor's contract with BNGA was to
         deliver packaged and treated sludge to the Department. However,
         the contract did not specify how to achieve this, nor did it flow
         down important requirements, including project management and



Page 2                                                  Details of Finding
         nuclear safety regulation. In August 2005, the DNFSB also raised
         concerns to the Department about the appropriateness of
         conducting design reviews before the preliminary documented
         safety analysis and associated hazard analysis had been completed.

         In late November 2005, BNGA commissioned an independent
         review panel to identify areas of concern for the project to address.
         The panel voiced a concern about the chemistry of the sludge and
         the use of high temperature and pressure to oxidize the uranium in
         the corrosion vessel given that such a process had not been
         demonstrated on a small scale. Thus the panel recommended
         bench scale testing. Subsequently, BNGA coordinated with the
         PNNL to study the physical properties of the sludge under these
         conditions. A bench scale test performed by PNNL found that the
         hydrothermal treatment did adversely affect the chemical and
         physical properties of the sludge. PNNL formally reported these
         findings in March 2007, but by that time the MOSS had already
         been constructed.

                                 Project Termination

         The CSAPS was ultimately deemed to be ineffective, and as such,
         was abandoned by the Department. By April 2007, the MOSS had
         been fabricated and was ready for Fluor to begin acceptance testing
         to determine whether the system would operate as intended.
         During the testing, it was determined that the MOSS could not
         confine radioactive materials during normal operations and that it
         would expose workers to unnecessary safety risk. Thus, in
         September 2007, after performing an assessment to determine the
         maturity of the CSAPS, Richland abandoned the system.
         Specifically, Richland determined:

             • The corrosion vessel, a module for oxidizing the sludge,
               was designed to operate under high temperatures and high
               pressure. However, in the event of an accident, there could
               be unacceptable radiation containment risk, with potential
               significant exposure risk to the public;

             • The MOSS could not confine radioactive materials during
               normal operations and would expose workers to
               unnecessary risk; and,

             • It would be cost prohibitive to make the necessary
               modifications to the BNGA sludge treatment system for use
               in its intended purpose.




Page 3                                                   Details of Finding
Management Oversight The unsuccessful attempt to dispose of the K Basins sludge was
                     due to inadequate management oversight of the project by the
                     Department. Because of its focus on meeting schedule, Richland
                     did not ensure that contractors followed best business practices that
                     would have mitigated project risk and helped ensure that
                     substantial cost and time were not wasted in constructing an
                     unacceptable nuclear facility. Project management, quality
                     assurance, and contract management weaknesses directly
                     contributed to the failed design and fabrication efforts.

                                                  Project Management

                           Richland did not apply the Department's project management order
                           (DOE Order 413.3) that would have required Fluor to implement
                           key project management principles and best practices designed to
                           mitigate project risk. Effective risk management relies on the
                           owner of the project, the Department, to identify the risk in
                           executing the project and then decide to either accept the risk or
                           terminate the project due to unacceptable risk. Project
                           management principles call for a risk management analysis to first
                           identify the problem to be resolved and then select the best
                           solution. In a 2005 report, the National Research Council
                           (Council) also identified similar issues related to the Department's
                           problems with adhering to project management principles.
                           Specifically, according to the Council's report, even though
                           contractors play major roles in identifying, analyzing, mitigating,
                           and controlling project risks, project risk management is a function
                           of the Department and should not be fully delegated to the
                           contractor.

                           However, Richland never ensured that a number of key project
                           management steps were implemented in the early stages of the
                           project to mitigate project risk. Specifically,

                                • An alternative analysis of potential solutions for packaging
                                  the radioactive waste, a key process of CSAPS, was not
                                  performed. This would have enabled Richland to evaluate
                                  various potential solutions to determine which solution
                                  would best meet mission goals and mitigate related risk,
                                  including cost, schedule, environmental, safety, and health
                                  risks. Instead, Richland settled solely on a commercially
                                  available European system that, unlike the intended use of
                                  the MOSS, had only previously been used to grout and
                                  package low-activity waste.




Page 4                                                                    Details of Finding
             • When Richland selected the European system for its waste
               packaging solution, the MOSS, it did not perform a
               feasibility study to determine if its use on the CSAPS was
               viable. The European waste packaging system was being
               used to treat low-activity waste. A feasibility study of that
               system would have afforded Richland the opportunity to
               determine if its application at the Hanford Site for
               packaging radioactive remote-handled transuranic sludge
               was practical and would also have identified potential
               performance issues. Nonetheless, Richland selected the
               commercially available system and moved forward with
               procurements to modify the system for CSAPS without first
               determining that it was a viable solution and the best
               alternative.

             • Timely bench scale testing was not performed to prove the
               viability of the CSAPS before procuring equipment to
               support the mission. According to BNGA's January 2006
               internal study of the CSAPS, it stated that "in the chemical
               industry, it would be extremely unusual to design and build
               a full-scale reaction vessel, without having first carried out
               the reaction on the small-scale." Eleven months later,
               PNNL was contracted to conduct bench scale testing to
               determine how the sludge would react in the corrosion
               vessel. In March 2007, PNNL issued a report that stated
               there were significant adverse changes in the chemical and
               physical properties of the sludge. However, by that time,
               Richland had already procured and fabricated equipment
               for the MOSS; and 6 months later the CSAPS project was
               abandoned.

                                 Quality Assurance

         Richland did not ensure that Fluor adhered to policies and
         procedures that reduced safety risk and ensure that equipment met
         technical specifications. Furthermore, its Quality Assurance Plan
         did not contain these requirements. When the MOSS was
         fabricated, it lacked important safety controls in its design to
         protect workers from possible radiation contamination. Notably,
         during the design of the MOSS, in August 2005, the DNFSB
         expressed concern that the design reviews of the MOSS were
         advancing even though the preliminary safety analysis and
         associated hazard analysis had not been completed. The purposes
         of those analyses are to identify the safety controls in design.




Page 5                                                  Details of Finding
         Richland also permitted Fluor to procure equipment for the
         K Basins Sludge Treatment Project without first determining
         whether the safety performance of the equipment was technically
         feasible or in the best interest to the Department. The Nuclear
         Safety Management Safety Basis Requirements (10 CFR 830
         Subpart B) calls for contractors to perform a safety analysis to
         ensure the safe design of a nuclear facility, to include its equipment
         and operations. These regulations require that the contractors
         thoroughly document their understanding of the nuclear facility,
         the work to be performed, the associated hazards, and the needed
         hazard controls. Once these controls are established and approved
         by the Department, the contractor may begin the procurement and
         fabrication of the equipment. This process not only helps ensure
         the safety of nuclear facilities, but also ensures that substantial cost
         and time are not wasted in constructing a nuclear facility that will
         not be acceptable to the Department.

         Despite the Nuclear Safety Management Safety Basis
         Requirements and Departmental guidance (DOE G 421.1-2), we
         could not determine if Richland adequately assessed the risk of
         allowing Fluor to move forward with procurements in advance of
         an approved safety analysis. Richland acknowledged that it had
         not documented its rationale for this authorization. Richland
         officials told us that it was in the best interest of the Department to
         authorize the early procurement of the CSAPS, since the project
         schedule was very aggressive. In order to meet regulatory
         milestones, Fluor was to deliver to the Department 50 drums of
         WIPP certifiable waste by March 2006. To meet this milestone,
         Fluor requested permission from the Department to procure "long
         lead" items prior to the approval of a safety analysis. The
         Department's blanket approval for procuring long-lead items
         essentially permitted Fluor to procure the entire treatment system,
         not just a few items. By permitting the contractors to begin the
         procurement process prior to completion of the safety analysis,
         Richland was unable to ensure that the needed safety features were
         designed into the waste processing equipment.

         In March 2006, Richland recognized the problem of procuring the
         equipment prior to approval of a safety analysis, and rescinded
         Fluor's authority to procure the equipment. A Department review
         team appointed to review the project determined that Fluor's
         request and Richland's approval for early procurement were not
         consistent with the nuclear safety rule. Additionally, the review
         team's report concluded there was no documented justification for
         the early procurement of the sludge packaging system.
         Nonetheless, despite the review team's findings, in May 2006,



Page 6                                                     Details of Finding
         Richland granted Fluor authority to resume procurement of the
         MOSS, even though it had not documented its rationale for
         concluding that the authorization was consistent with the Nuclear
         Safety Management Safety Basis Requirements or Departmental
         guidance.

                               Contract Management

         Richland did not adequately manage the contract for the K Basins
         Sludge Treatment Project. Richland approved Fluor's contract
         strategy to subcontract the entire sludge treatment phase to a
         subcontractor without requiring adequate oversight from either
         Fluor or Richland. Fluor's subcontract with BNGA required
         BNGA to deliver 50 fifty-five gallon drums of waste by
         March 2006, and complete all sludge treatment activities by
         January 2007. Although Fluor asserted that the full liability for
         constructing and operating the sludge treatment system rested with
         BNGA, once it was clear that BNGA would be unable to deliver a
         viable system, Richland did not take sufficient contractual action
         appropriate to the circumstances. Specifically, had Richland
         partially terminated Fluor's contract work scope related to the K
         Basins Sludge Treatment Project, Fluor would have been required
         to either return or sell the equipment and thus reduce the cost of
         the contract. Since the Department had spent approximately $5
         million on the MOSS module, the MOSS had commercial value
         that may have resulted in a significant credit to the Department. In
         fact, BNGA's parent company expressed interest in the equipment.
         However, instead of partially terminating Fluor's contract,
         Richland abandoned the CSAPS and Fluor required BNGA to
         deliver the associated equipment to the Department, where it
         remains unused.

         In addition, Fluor subsequently closed the BNGA contract and
         negotiated a $1 million payment to BNGA, even though BNGA's
         equipment did not meet contract specifications, terms, and
         conditions. Specifically, Fluor's $1 million payment was a
         settlement that should have required Richland's contracting
         officer's approval. Richland officials were unaware of the
         $1 million payment when it was brought to their attention, but
         stated the payment may have represented a constructive
         termination for convenience. However, the Federal Acquisition
         Regulations has no provision for a constructive termination for
         convenience and does not allow a settlement payment without a
         formal termination. In this instance, Fluor never terminated the
         subcontract with BNGA, but rather modified BNGA's scope of
         work to close out the contract and paid BNGA a fee that was not



Page 7                                                  Details of Finding
                         reflective of its performance. Our review of supporting
                         documentation submitted with the invoice revealed that it
                         explicitly stated that the final payment by Fluor was "in lieu of all
                         other unpaid fee amounts whether earned or unearned."

Project Cost, Contract   As a result of the project management and quality assurance issues
Fees and Impact on       outlined in our report, the Department ultimately bore the entire
Future Project Costs     cost of the K Basins Sludge Treatment Project, spending
                         $43 million and investing 3 years of effort for the engineering and
                         procurement of the CSAPS modules, while receiving no useful
                         mission performance. Had Richland implemented critical project
                         management practices in the early stages of the project, such as an
                         alternative analysis and feasibility study of key components, and
                         bench scale testing of the modules of the CSAPS, many of the
                         technical problems may have been identified. Furthermore, had
                         Richland ensured that the safety analysis and associated hazard
                         analysis were performed before procuring key equipment for
                         CSAPS, it may have been able to make certain that needed safety
                         features were designed into the waste processing equipment.

                         We also noted that since the CSAPS project was abandoned, the
                         estimated cost to remove the K Basins sludge to comply with
                         regulatory milestones is now expected to significantly increase. At
                         the time of our review, the Department's new contractor, CH2M
                         Hill Plateau Remediation Company, was considering a project
                         execution plan that estimated a total lifecycle cost of
                         $174.8 million to move the sludge from the K Basins to another
                         facility. This plan did not include the additional cost to store the
                         sludge at the interim facility, or the cost to treat and package the
                         sludge for disposal.

                         Furthermore, issues with Federal oversight of the contract resulted
                         in $1 million in questionable payments, despite the failure of the
                         CSAPS. Specifically, when CSAPS was abandoned, Fluor
                         unilaterally paid $1 million to BNGA to close out the contract, a
                         payment that should have required Richland's contracting officer's
                         approval and which was not in compliance with Federal
                         Acquisition Regulations. Since it was not approved as required,
                         we question the entire $1 million payment.

RECOMMENDATIONS          We believe that the K Basins Sludge Treatment Project provides a
                         number of valuable lessons learned. To correct the problems
                         identified with the management of the K Basins Sludge Treatment
                         Project and help ensure that lessons learned are applied to ongoing




Page 8                                                                  Recommendations
                   and future projects, we recommend that the Assistant Secretary,
                   Office of Environmental Management (EM) :

                       1. Ensure that project management requirements are
                          appropriately applied to all major projects, to include the
                          planning and early design phase;

                       2. Ensure that the site fully documents the analysis
                          supporting key nuclear safety decisions;

                       3. Improve contract administration by ensuring adequate
                          Federal involvement in the technical and procurement
                          strategies proposed by the contractors; and,

                       4. Evaluate the costs questioned in this report, and take any
                          necessary action to recover unallowable costs, as
                          appropriate.

MANAGEMENT AND     The Office of Environmental Management generally concurred
AUDITOR COMMENTS   with the report's recommendations. However, management
                   expressed concern that the report does not clearly define the
                   timeframe of the audit as the period of 2004 through 2007, and
                   does not discuss improvements in project performance since 2007.
                   To this end, EM asserted that corrective actions have been initiated
                   to address each major area that was addressed in the
                   recommendations. Specifically, actions are underway to: improve
                   project management practices; improve compliance with Quality
                   Assurance requirements; and, strengthen the role of the Federal
                   Project Director, as well as other improvements. EM considers
                   these management reforms complete. As for the fourth
                   recommendation, EM committed to fully evaluate the $1 million
                   fee associated with contract closeout, and the issues associated
                   with the disposition of excess equipment for allocability,
                   allowability, reasonableness, and, based on the review, to recover
                   the fee plus interest, as appropriate by January 31, 2012.

                   Management's reactions to our recommendations are responsive to
                   the finding. We modified Appendix 1 to clarify the timeframe of
                   the activities under audit. We acknowledge the many process
                   improvement initiatives EM has underway to improve project
                   management. These reforms, once fully implemented, should
                   increase the likelihood of successful project execution. While the
                   Department has changed its strategy for sludge remediation since
                   2007, the revised project was in the preliminary design phase and
                   thus was not mature enough for us to evaluate.

                   Management's comments are included in their entirety in
                   Appendix 3.

Page 9                                                                    Comments
Appendix 1

OBJECTIVE     The objective of this audit was to determine whether the
              Department of Energy (Department) effectively managed the
              sludge treatment phase of the Spent Nuclear Fuel project.

SCOPE         The audit was performed from August 18, 2009, to December 18,
              2010, at the Hanford Site in Richland, Washington. The scope of
              the audit primarily covered K Basins sludge treatment operations
              and planning activities during Fiscal Years 2004 through 2007, as
              well as certain follow-up actions in later fiscal years. This audit
              did not include detailed work on the present project strategy, which
              was reconfigured in 2007, but is currently only in the preliminary
              design phase.

METHODOLOGY   To accomplish the audit objective, we:

                  • Analyzed the Fluor Hanford, Inc., contract and their
                    subcontract with British Nuclear Group America;

                  • Reviewed the contractor procurement files;

                  • Reviewed findings from prior audit reports regarding the K
                    Basins Sludge Treatment Project;

                  • Researched Federal and Departmental regulations, policies,
                    and procedures; and,

                  • Interviewed key personnel in the Office of Environmental
                    Management; Office of Health, Safety and Security;
                    Defense Nuclear Facilities Safety Board; Richland
                    Operations Office; CH2M HILL Plateau Remediation
                    Company; and, Fluor Hanford Close-out Office.

              We conducted this performance audit in accordance with generally
              accepted Government auditing standards. Those standards require
              that we plan and perform the audit to obtain sufficient, appropriate
              evidence to provide a reasonable basis for our findings and
              conclusions based on our audit objective. We believe that the
              evidence obtained provides a reasonable basis for our findings and
              conclusions based on our audit objective. Accordingly, we
              assessed significant internal controls and compliance with laws and
              regulations necessary to satisfy the audit objective. We also
              assessed the Department's implementation of the Government
              Performance and Results Act of 1993 and determined that it had
              established performance measures for project management.
              Because our review was limited, it would not necessarily have



Page 10                                   Objective, Scope and Methodology
Appendix 1 (continued)

                    disclosed all internal control deficiencies that may have existed at
                    the time of our audit. We did not rely upon computer processed
                    data to accomplish our audit objective.

                    An exit conference was held with Department officials on
                    February 10, 2011.




Page 11                                         Objective, Scope and Methodology
Appendix 2

                                  PRIOR AUDIT REPORT


•   Sludge Removal Operations at the Hanford Site's K Basins (DOE/IG-0698, September 2005).
    The audit found that sludge removal operations had slipped in schedule and had experienced
    significant cost overruns. The project's actual costs had exceeded budgeted costs by
    $34 million between October 2002 and June 2005. The project management problems
    occurred because neither the Department of Energy nor Fluor Hanford, Inc., management
    had focused adequate attention on the critical planning phase of the sludge removal portion
    of the project, nor had they placed any emphasis on key project actions. The report
    recommended that the Richland Operations Office develop a complete risk
    assessment/mitigation plan, ensure long-term project planning was completed, and reevaluate
    the cost and schedule baseline.




Page 12                                                                   Prior Audit Report
Appendix 3




Page 13      Management Comments
Appendix 3 (continued)




Page 14                  Management Comments
Appendix 3 (continued)




Page 15                  Management Comments
Appendix 3 (continued)




Page 16                  Management Comments
                                                                    IG Report No. DOE/IG-0848

                           CUSTOMER RESPONSE FORM

The Office of Inspector General has a continuing interest in improving the usefulness of its
products. We wish to make our reports as responsive as possible to our customers' requirements,
and, therefore, ask that you consider sharing your thoughts with us. On the back of this form,
you may suggest improvements to enhance the effectiveness of future reports. Please include
answers to the following questions if they are applicable to you:

1. What additional background information about the selection, scheduling, scope, or
   procedures of the inspection would have been helpful to the reader in understanding this
   report?

2. What additional information related to findings and recommendations could have been
   included in the report to assist management in implementing corrective actions?

3. What format, stylistic, or organizational changes might have made this report's overall
   message more clear to the reader?

4. What additional actions could the Office of Inspector General have taken on the issues
   discussed in this report which would have been helpful?

5. Please include your name and telephone number so that we may contact you should we have
   any questions about your comments.


Name                                          Date

Telephone                                     Organization


When you have completed this form, you may telefax it to the Office of Inspector General at
(202) 586-0948, or you may mail it to:

                               Office of Inspector General (IG-1)
                                     Department of Energy
                                    Washington, DC 20585

                                  ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of
Inspector General, please contact Felicia Jones (202) 253-2162.
This page intentionally left blank.
The Office of Inspector General wants to make the distribution of its reports as customer friendly and cost
  effective as possible. Therefore, this report will be available electronically through the Internet at the
                                             following address:

                   U.S. Department of Energy Office of Inspector General Home Page
                                        http://www.ig.doe.gov

       Your comments would be appreciated and can be provided on the Customer Response Form
                                      attached to the report.
